                             M92070031
                       CLOSE OUT MEMORANDUM

On July 24, 1992 the Director of Research at the (  I
                                                    -
                                                    @
               informed us that the University's Ethics Committee
m      a       n investisation into possible plaqiarism involving


possible plagiarism in two papers                the subject, had
written.
     -   - 4    - . , three ~ a r a ~ r a ~~ertainina
In alleaation (1).
testing and resolution ina       4   A.
                                           hs
                                          a.      4
                                                      to hmothesis
                                                          *
                                                          A.
                                                                      1


        - to the acknowledqement in this paper, was under NSF
accordinq
awards
In allegation   (2),   the   subject, in a manuscript, 0

from a paper by


The investigating committee determined that allegation (1)met the
university's definition for plagiarism-butrecognized evidence that
the conduct arose inadvertently through editing procedures. The
committee also determined that allegation (2) could not involve the
subject in plagiarism since he was a co-author of the paper
allegedly plagiarized.
We accepted the university's substitute final investigation report
of July 23, 1993 as clarified by a letter of September 2, 1993 from
the Vice-President for Research and Education as complete and
accurate.
The copying found in allegation (1) is not sufficient evidence that
the subject engaged in misconduct in science under NSF1s
regulation: the behavior did not constitute "recklessnessn and
therefore does not rise to the level of a serious deviation from
accepted practice. For the three paragraphs involved, a proper
citation except for one key stroke was given. There were both
additions to and deletions from the source text so that the copying
was not total. However, quotation marks or indentations were
absent.     Also, the university found that the act of copying
occurred as a result of a careless editing error made by a
-individual              who must rely almost totally on electronic
word processing for written communication.
We are further reassured by the following facts: that during both
the inquiry and the investigation the subject took full
responsibility for the copying which occurred although he did not
know how the ncalamitous mistaken occurred; he expressed remorse
and appreciation for the offense; he agreed to change his writing
and editing procedures to prevent similar occurrences in the
future; and was willing to accept institutional sanctions.
Under these circumstances, we are closing this case without a
finding of misconduct in science and relying upon the university's
corrective and preventative sanctions which require             (a)
certification for one year by the subject to his superior that
every manuscript and every proposal for external funding has been
checked for and was free of passages copied without proper
attribution and (b) the establishment of editorial procedures to
prevent future repetition of any copying.




September 28, 1993
Concurrence:




cc: Assistant Inspector General for Oversight
    Inspector General
